No. 19-511

IN THE

Supreme Court of the United States
FACEBOOK, INC.
v.

Petitioner,

NOAH DUGUID, individually and on behalf of himself and
all others similarly situated,
Respondent,

and
UNITED STATES OF AMERICA,

Respondent-Intervenor
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICUS CURIAE
THE HOME DEPOT, INC.
IN SUPPORT OF PETITIONER
KEITH BRADLEY
Counsel of Record
SQUIRE PATTON BOGGS
(US) LLP
1801 California Street
Denver, CO 80202
(303) 830-1776
keith.bradley@squirepb.com
WILLIAM P. BARNETTE
BEN W. THORPE
The Home Depot, Inc.
2455 Paces Ferry Rd.
Atlanta, GA 30339
(770) 433-8211

BENJAMIN BEATON
SCOTT W. COYLE
BENJAMIN C. GLASSMAN
SQUIRE PATTON BOGGS
(US) LLP
201 E. Fourth Street
Cincinnati, OH 45202
(513) 361-1200

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ..................................... ii
INTEREST OF AMICUS CURIAE ........................... 1
SUMMARY OF ARGUMENT.................................... 2
ARGUMENT .............................................................. 5
I.

The Ninth Circuit’s Interpretation Has
Stretched the Auto-Dialer Prohibition Far
Beyond Its Original Purpose........................... 5
A.

Congress enacted the TCPA to
combat aggressive telemarketing ........ 5

B.

Compliance with the auto-dialer
prohibition, as originally intended, was straightforward ................ 9

C.

TCPA litigation has expanded to
attack ordinary customer communications .............................................. 13

II.

The Ninth Circuit’s Expansive
Interpretation Makes TCPA Compliance
Unpredictable and Inordinately Expensive .... 19

III.

The Definition of “Automatic Telephone
Dialing System” Must Be Read Narrowly To
Avoid Violating The First Amendment ......... 29

CONCLUSION ......................................................... 34

ii
TABLE OF AUTHORITIES
Page(s)
Cases
ACA Int’l v. FCC,
885 F.3d 687 (D.C. Cir. 2018) .................... passim
Barr v. Am. Ass’n of Political Consultants, Inc.,
140 S. Ct. 2335 (2020)....................................... 29
Campbell-Ewald Co. v. Gomez,
136 S. Ct. 663 (2016)......................................... 26
Dominguez v. Yahoo, Inc.,
894 F.3d 116 (3d Cir. 2018) .............................. 16
Duguid v. Facebook, Inc.,
926 F.3d 1146 (9thCir. 2019).......................28, 30
Gadelhak v. AT&T Servs.,
950 F.3d 458 (7th Cir. 2020) .............................. 6
Glasser v. Hilton Grand Vacations Co.,
948 F.3d 1301 (11th Cir. 2020)..............13, 14, 17
Manopla v. Home Depot USA, Inc.,
No. 15-1120 (D.N.J. 2017) ...........................21, 27
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018) .....................30, 31
Matal v. Tam,
137 S. Ct. 1744 (2017)....................................... 29
McCullen v. Coakley,
573 U.S. 464 (2014)........................................... 30

iii
TABLE OF AUTHORITIES—Continued
Page(s)
Mims v. Arrow Fin. Servs.,
565 U.S. 368 (2012)......................................14, 15
Satterfield v. Simon & Schuster, Inc.,
569 F.3d 946 (9th Cir. 2009) ............................ 22
United States v. Davis,
139 S. Ct. 2319 (2019)....................................... 32
Statutes
47 U.S.C. § 227(a)..............................................31, 33
47 U.S.C. § 227(b)..................................17, 20, 21, 30
47 U.S.C. § 227(c) ................................................... 23
Telephone Consumer Protection Act of
1991, Pub. L. No. 102-243, 105 Stat.
2394 ..................................................2, 6, 8, 30, 33
Other Authorities
Rules and Regulations Implementing the
TCPA, 7 FCC Rcd. 8752 (1992) ........................ 10
Rules and Regulations Implementing the
TCPA, 10 FCC Rcd. 12391 (1995) .................... 10
Rules and Regulations Implementing the
TCPA, 18 FCC Rcd. 14014 (2003) .................... 13
Rules and Regulations Implementing the
TCPA, 30 FCC Rcd. 7961(2015) ....................... 24

iv
TABLE OF AUTHORITIES—Continued
Page(s)
H.R. Rep. No. 101-633 (1990) .............................. 6, 9
H.R. Rep. No. 102-317 (1991) .....................7, 8, 9, 10
Pew Research Center, Smartphone
Ownership Is Growing Rapidly Around
the World, But Not Always Equally
(Feb. 2019) ........................................................ 30
U.S. Chamber Institute for Legal Reform,
TCPA Litigation Sprawl: A Study of the
Sources and Targets of Recent TCPA
Lawsuits (Aug. 2017) ........................................ 16
WebRecon Stats for Dec. 2019 & Year in
Review, available at
https://webrecon.com/webrecon-statsfor-dec-2019-and-year-in-review-howdid-your-favorite-statutes-fare/ ........................ 15

INTEREST OF AMICUS CURIAE1
The Home Depot, Inc. (“Home Depot”) is the
world’s largest home improvement retailer, selling a wide assortment of building materials, home
improvement products, and more. The company
provides a range of services such as installation
and equipment rental. Home Depot operates
nearly 2,000 retail stores throughout the United
States, and also maintains a network of distribution and fulfillment centers linked—along with its
retail stores—to a number of e-commerce websites. The company seeks to provide its customers
with a seamless experience that includes physical
and digital retail options as well as home-improvement services.
To do so, Home Depot communicates frequently with its customers on a wide range of topics, and—both by necessity and to ensure the
highest level of customer service—it uses phone
calls and text messages for many of those communications. Some of those communications inform
customers that their orders are ready for delivery
or pickup, or that equipment they wanted to rent
has become available. Some involve scheduling of
services, coordination of service delivery, account
security, or safety information. And some, indeed,
involve marketing; Home Depot has found that

1No

counsel for a party authored this brief in whole or in
part, and no person or entity, other than amicus curiae, its
members, and its counsel, made a monetary contribution to
the preparation or submission of this brief. Counsel for petitioner and respondent provided written consent to the filing of this brief under Rule 37(3)(a).

2
many of its customers desire personalized information about new products and services. In short,
customer communications enable Home Depot to
serve the customer.
But like many other companies its size, Home
Depot faces persistent allegations of Telephone
Consumer Protection Act (“TCPA”) violations,
based on the alleged use of automatic telephone
dialing systems (“auto-dialers”) when it contacts
people for the sorts of reasons just described.
Home Depot does not engage in spam telemarketing or the sort of intrusive mass robocalling that
the TCPA was meant to combat. Yet the threat of
TCPA liability for engaging in ordinary, reasonable customer communications remains.
Home Depot has an interest in ensuring the
TCPA’s auto-dialer restrictions do not stretch beyond their original meaning, so that Home Depot
and other businesses focused on outstanding customer service can communicate with customers
without inordinate fear of the strict liability imposed by the TCPA. It submits this amicus brief
to inform the Court about the experience and concerns of one company—like so many others in the
United States—that tries every day to comply
with the TCPA, yet faces a continuous threat of
undeserved and seemingly unavoidable liability.
SUMMARY OF ARGUMENT
“A-always, B-be, C-closing. Always be closing.”2 That infamous 1992 mantra, reflecting the
incessant pressure to contact potential customers
2

Glengarry Glen Ross (New Line Cinema, 1992).

3
and push products and services no one ever requested, captures the distaste that many Americans felt for telemarketing 30 years ago. Advances in telecommunications had fed the growth
of a particularly intrusive form of marketing, in
which a company would call large blocks of phone
numbers to deliver an advertising message.
These mass advertising calls interrupted recipients’ privacy and cluttered their phone lines; in
some cases, persistent calls from advertisers even
blocked access to 911 lines.
This was an acute problem, and Congress enacted a specific, targeted solution. It defined “automatic telephone dialing system” to mean equipment that could call lists of numbers generated sequentially or at random; and it prohibited calls using such devices to emergency lines, to hospitals,
and to cell phones. To achieve speedy and certain
compliance, Congress imposed a drastic remedy:
Any call violating this rule incurred an automatic
$500 penalty, owed to the call recipient—strict liability, no questions asked about the caller’s intentions or business practices.
The TCPA’s auto-dialer prohibition was effective, and devices of that sort became obsolete. But
instead of accepting that victory, the Federal
Communications Commission (“FCC,” the implementing agency) explored whether the statute
could be stretched to cover new and different technology. That reach has now given cover to thousands of lawsuits against companies that were not
using random or sequential dialing, many of
which were not even telemarketing at all. The
Ninth Circuit version of the statute now before the

4
Court deems any device an auto-dialer if it can
store a list of numbers and call them automatically—as essentially all modern calling equipment can. Thus, a provision that was originally
meant to bring a swift end to a specific and particularly unpleasant practice has been stretched into
a broad-spectrum law requiring prior consent before calling cell phones.
The practical problems are immense.
Whereas compliance with the original auto-dialer
prohibition was straightforward—an auto-dialer
was a costly piece of equipment useful only for the
intrusive telemarketing that Congress prohibited—a business cannot comply easily (or perfectly) with the new version.
Interpreting
whether a given person has consented to be called
is a source of uncertainty and risk. Phone numbers—especially cell phone numbers—regularly
change hands, and the person being called at a
given number is sometimes not the person who
consented. The range of vendors and third parties
that make calls on a company’s behalf present a
further difficulty. If the auto-dialer rule covers essentially every calling device they might use, it becomes necessary to scrutinize their activities so
closely as to be impracticable.
This is not what Congress intended. The
clearest sign is the $500 strict-liability penalty.
The TCPA allows defenses for most of its other restrictions, and it permits the FCC to create exceptions to them by rule. The auto-dialer provision is
special in those regards, a status that shows how
keenly Congress wanted auto-dialer marketing to
stop immediately. Yet the activities reached by

5
the Ninth Circuit’s expansion of the statute are
ordinary customer communications for consumerfacing businesses across the economy. It is not
plausible that Congress would have reserved its
most automatic and strict sanction in the statute
for the provision that is—as the Ninth Circuit applies the law—the most difficult to comply with.
Finally, the Ninth Circuit’s interpretation
raises serious First Amendment concerns this
Court can and should avoid. Under its expansive
reading, nearly every modern phone is an autodialer. And the TCPA prohibits any person—not
just a business making a commercial call, any person—from using an auto-dialer to call a cell phone
without prior express consent. That sweeping restriction would be an unreasonable restriction on
the means and manner of communicating, contrary to the First Amendment. It is far more likely
that Congress meant simply to prohibit one specific, limited-purpose tool, overwhelmingly used
for advertising in one particular manner.
ARGUMENT
I.

THE NINTH CIRCUIT’S INTERPRETATION HAS
STRETCHED THE AUTO-DIALER PROHIBITION
FAR BEYOND ITS ORIGINAL PURPOSE.

A. Congress enacted the TCPA to combat
aggressive telemarketing.
In 1991, Americans were fed up with dinnertime phone calls hawking products they had never
heard of and had no interest in buying. Due to a
rapid decrease in telecommunications costs and
advances in technology, “[t]he use of the telephone

6
to market goods and services to the home” had become “pervasive,” accounting for more than 18
million calls each day. Telephone Consumer Protection Act of 1991 (“TCPA”), Pub. L. No. 102-243,
§ 2, 105 Stat. 2394 (congressional findings); see
also H.R. Rep. No. 101-633, at 2 (1990) (“[W]ith
the rapid decrease in the cost of telecommunications and the adoption of sophisticated telemarketing tools by businesses around the country, the
number of unsolicited telemarketing practices has
increased overwhelmingly”).
Many of these calls were not even targeted to
the particular recipient, as telemarketers “primarily used systems that randomly generated
numbers and dialed them.” Gadelhak v. AT&T
Servs., 950 F.3d 458, 461 (7th Cir. 2020). The telephone had become a tool for mass, indiscriminate
advertising. But unlike many other forms of mass
marketing (e.g., radio or television), a consumer
could not avoid this sort of nuisance by simply
turning it off. Unplugging the phone—though
perhaps necessary for a peaceful dinner—interfered with its important ordinary function.
This “proliferation” of “intrusive, nuisance
calls” not only “outraged” consumers but also endangered public safety. H.R. Rep. No. 102-317, at
2 (1991). “Telemarketers often program[med]
their systems to dial sequential blocks of telephone numbers, which have included those of
emergency and public service organizations. Once
a phone connection is made, automatic dialing
systems can ‘seize’ a recipient’s telephone line and
not release it until the prerecorded message is
played, even when the called party hangs up.” Id.

7
at 10. First responders reported incidents in
which random or sequential dialing systems
“call[ed] and seiz[ed] the telephone lines of public
emergency services, dangerously preventing those
lines from being utilized to receive calls from those
needing emergency services.” Id. at 24. In addition to annoying unsuspecting consumers, randomly or sequentially dialed calls thus also
threatened to clog emergency telephone lines with
the aural equivalent of junk mail.
Congress responded by enacting the TCPA,
which narrowly targeted these specific abuses.
The Act prohibited “any person within the United
States” from, inter alia:
(1) “mak[ing] any call (other than a call made
for emergency purposes or made with the
prior express consent of the called party)
using any automatic telephone dialing
system or an artificial or prerecorded
voice” to an emergency line, hospital room,
or “any telephone number assigned to a
paging service, cellular telephone service,
specialized mobile radio service, or other
radio common carrier service, or any service for which the called party is charged
for the call”; or
(2) “initiat[ing] any telephone call to any residential telephone line using an artificial
or prerecorded voice to deliver a message
without the prior express consent of the
called party” (unless the call was placed
for emergency purposes).

8
TCPA § 3(a), 105 Stat. at 2395–96.3 Banning
these types of unsolicited calls was necessary,
Congress explained, because it was “the only effective means of protecting telephone consumers
from this nuisance and privacy invasion.” TCPA
§ 2, 105 Stat. at 2394–95 (congressional findings).
Congress emphasized that it “[did] not intend
for this restriction to be a barrier to the normal,
expected, or desired communications between
businesses and their customers.” H.R. Rep. No.
102-317, at 17. “[W]here the called party has in
essence requested the contact by providing the
caller with their telephone number for use in normal business communications,” Congress recognized that the privacy concerns underlying the
Act were not implicated. Id. at 13; see also H.R.
Rep. No. 101-633, at 7 (explaining that advanced
telecommunications technology could “serve a
useful purpose and eliminate costly labor” where
there is a “prior existing relationship” between the
parties).
Congress thus struck a “balance” between “individuals’ privacy rights, public safety interests,
and commercial freedoms of speech and trade” by
limiting the Act’s prohibitions to indiscriminate,
non-consensual calls. TCPA §§ 2, 3, 105 Stat. at
2394–96. The prohibition “does not apply when
the called party has provided the telephone number of such a line to the caller for use in normal

3

The Act also prohibited junk faxes and the use of “an automatic telephone dialing system in such a way that two or
more telephone lines of a multi-line business are engaged
simultaneously.” TCPA § 3(a), 105 Stat. at 2396.

9
business communications.” H.R. Rep. No. 102317, at 17. “For example, a retailer, insurer,
banker or other creditor would not be prohibited
from using an automatic dialer recorded message
player to advise a customer (at the telephone
number provided by the customer) that an ordered
product had arrived, a service was scheduled or
performed, or a bill had not been paid.” Id.
B. Compliance with the auto-dialer prohibition, as originally intended, was straightforward.
To comply with the Act, consumer-facing businesses therefore had to ensure that they did not
use the prohibited systems—i.e., prerecorded messages to residential phone lines, junk faxes, and
random or sequentially dialed calls to emergency
lines, hospital rooms, or cell phones—without consent. But this prohibition did not extend to “normal business communications,” which were targeted to the particular customer and therefore did
not engender the same types of complaints as indiscriminate telemarketing. See H.R. Rep. No.
102-317, at 14 (explaining that “the absence of any
current or prior dealings with the caller was the
source of many objections”).
The FCC, the agency responsible for administering and implementing the Act, contemporaneously understood that the auto-dialers were
meant to address pervasive, indiscriminate telemarketing. That is the activity that Congress
identified as the problem, and that is the practice
that the Act specifically targeted.

10
The FCC’s first rules under the TCPA confirmed this understanding, “attempt[ing] to balance the privacy concerns which the TCPA seeks
to protect, and the continued viability of beneficial
and useful business services.” Rules and Regulations Implementing the TCPA, 7 FCC Rcd. 8752,
8754 (1992). In response to concerns that businesses might “unintentionally incur liability” by
placing auto-dialed calls “to individuals who provided a number at one of the ‘prohibited destinations’” or whose “numbers have been changed
without notification,” the FCC “emphasize[d]”
that businesses “will not violate our rules by calling a number which was provided as one at which
the called party wishes to be reached.” Id. at
8768–69.
The FCC further clarified that telephone services such as “speed dialing,” “call forwarding,”
and “voice messaging services” were not prohibited by the auto-dialer provision, “because the
numbers called are not generated in a random or
sequential fashion.” Id. at 8776. The FCC reaffirmed this interpretation three years later, concluding that certain debt collection calls were not
subject to the auto-dialer restriction because they
“are not directed to randomly or sequentially generated telephone numbers, but instead are directed to the specifically programmed contact
numbers for debtors.” Rules and Regulations Implementing the TCPA, 10 FCC Rcd. 12391, 12400–
01 (1995).
These rules recognized that the concept of
randomly or sequentially generated numbers was
central to the concept of an auto-dialer. What

11
made those systems simultaneously so useful to
mass telemarketers and so intrusive and annoying to recipients was precisely that the numbers
were generated without reference to the individuals using the numbers. For example, an autodialer targeting the D.C. market might call every
possible phone number within a particular exchange (such as (202) 479-XXXX).4 By calling all
those numbers, the system could send a marketing message to every phone in that area, even if
some of the numbers turned out not to be connected or belonged to recipients like emergency
services that should be called only for specific purposes. Or, if for reasons of time, resources, or
strategy, the marketer did not want to call every
number in a particular exchange, the auto-dialer
might call a random sample of numbers within
each targeted exchange. Either way, the marketer could spread a message indiscriminately
without having to know people’s phone numbers
in advance.
In any case, the focus was on the fact that the
numbers called were random or sequential, as opposed to associated with individuals the caller was
trying to reach. Speed dialing and the other features that the FCC addressed did not involve such
randomly or sequentially generated numbers, because they used technology to call numbers that
were linked to the people being called. Moreover,
a caller using a speed dialer—or, today, using cus-

4

“Sequential” most naturally refers to the numbers’ coming in sequence: (202) 479-1000, (202) 479-1001, (202) 4791002, etc.

12
tomer relations software—would have received information that a given person should be reached
at a particular phone number, and the purpose of
the call would be to reach that person. Technologies like these are thus the opposite of the autodialer concept that underlay the TCPA.
Compliance with the auto-dialer restrictions,
as properly understood and as explained by the
FCC in its early TCPA rules, was relatively
straightforward. The capability to generate and
call a random or sequential list of phone numbers
was a specialized function that required either
purpose-built circuitry or intentional software
programming—and thus, equipment developed, to
some degree, to carry out that function. What ordinary phone user, then or now, inadvertently has
a phone that can generate or store, and then call,
a random or sequential list of numbers? To use an
auto-dialer, in that sense of the term, a business
would have to invest in obtaining or using the device. It would know it had done so, and it would
know which of its personnel had access to the
equipment. So to comply with the auto-dialer restrictions, a business could, straightforwardly
enough, not use an auto-dialer. Or it could, if it
wanted to use an auto-dialer for some purposes,
obtain the equipment but also maintain policies
and enforce calling protocols for use of that specialized equipment.

13
C. TCPA litigation has expanded to attack
ordinary customer communications.
“[F]or the first dozen years of the [TCPA’s existence,” “[e]veryone seemed to accept this interpretation” of the auto-dialer restriction as limited
to indiscriminate dialing. Glasser v. Hilton Grand
Vacations Co., 948 F.3d 1301, 1308 (11th Cir.
2020) (Sutton, J., sitting by designation). The
FCC and businesses alike viewed the generation
of numbers “in a random of sequential fashion” as
“a baseline for all covered calls.” Id.
This “common understanding” began to “dissipate,” however, in 2003, when the FCC sought to
extend the auto-dialer restriction to new technologies. Id. at 1308–09. With the advent of “predictive
dialers,”
telemarketing
companies
“switch[ed] from using machines that dialed a
high volume of randomly or sequentially generated numbers” to more targeted systems that
“merely dialed numbers from a database” of “predetermined potential customers.” Id.
In response, the FCC tried to sweep these new
systems under the auto-dialer prohibition, even
though they did not rely upon random or sequential number generation. Id. at 1308 (discussing
TCPA Rules & Regulations, 18 FCC Rcd. 14014,
14091 (2003)). In doing so, however, the FCC
failed to effectively grapple with the statutory definition of an “automatic telephone dialing system”—suggesting, in the same order, both that a
device must have the capacity to “generate and
dial random or sequential numbers” to qualify as
an auto-dialer, and that “equipment can meet the
statutory definition even if it lacks that capacity.”

14
ACA Int’l v. FCC, 885 F.3d 687, 702 (D.C. Cir.
2018) (emphasis added).
The FCC’s attempt to “pour new wine into old
skin” eventually failed,5 Glasser, 948 F.3d at
1308–09, but it nonetheless sparked extensive litigation about the scope of the TCPA’s auto-dialer
concept. These efforts to expand the reach of the
auto-dialer restrictions left “affected parties . . . in
a significant fog of uncertainty.” ACA Int’l, 885
F.3d at 703.
These efforts also brought the specter of TCPA
liability to businesses far removed from the intrusive, mass-scale telemarketing that Congress
meant to address. In Mims v. Arrow Financial
Services, this Court held that federal courts have
jurisdiction over TCPA claims. 565 U.S. 368
(2012). In response to concerns that opening the
doors to federal court would lead to an “enormous
potential volume of TCPA cases,” the Mims petitioner assured this Court that such claims would
make up no more than an “infinitesimal percentage” of the civil docket. See Petitioner’s Reply
Brief, Mims v. Arrow Fin. Servs., 565 U.S. 368
(2012), at 11–12 (emphasis added) (asserting defendants’ warnings of a flood of TCPA litigation
were “farfetched” and assumed “a shocking degree
of noncompliance”). That assurance made sense if
the auto-dialer restrictions applied only to calling

5

The D.C. Circuit ultimately set aside the FCC’s Order,
holding the “lack of clarity” in the agency’s description of
“the functions a device must perform to qualify as an autodialer fail[ed] to satisfy the requirement of reasoned decisionmaking.” ACA Int’l, 885 F.3d at 703.

15
random or sequential numbers—a practice that
was specific to the form of indiscriminate telemarketing that the TCPA originally targeted.
In fact, however, after this Court’s January
2012 decision in Mims, the federal courts witnessed an explosion in TCPA litigation:

Federal TCPA Cases by Year
5000
4500
4000
3500
3000
2500
2000
1500
1000
500
0
2011 2012 2013 2014 2015 2016 2017 2018 2019

Source: WebRecon Stats for Dec. 2019 & Year in Review, available at https://webrecon.com/webreconstats-for-dec-2019-and-year-in-review-how-did-yourfavorite-statutes-fare/.

Federal courts now deal with thousands of
TCPA cases each year. This flood is the predictable result of expanding the scope of auto-dialer liability. For example, of over 3,100 new TCPA
cases filed in 2017, 35.7% were against companies
in the financial industry, 18.1% against those in
debt collection, and 8.4% against those in the

16
health sector.6 These industries—collectively accounting for more than half of that year’s new
cases—are particularly unlikely to use random or
sequential dialing. They need to make their calls
to specific people, such as individuals being contacted about financial issues.7
Thus, the expanded interpretation of “automatic telephone dialing system” is driving TCPA
liability into industries and markets where, before
the FCC’s adventure in interpretation, auto-dialing in the TCPA sense was not a significant concern. These new types of defendants are companies that, under the original understanding of the
TCPA, had little to fear because they do not engage in indiscriminate telemarketing and are not
using its hallmark equipment. Now they face a

6

U.S. Chamber Institute for Legal Reform, TCPA Litigation Sprawl: A Study of the Sources and Targets of Recent
TCPA Lawsuits 7 (Aug. 2017).
7

Meanwhile, the decrease in new cases visible in the
graph for 2018 and 2019 probably reflects the demise of the
FCC’s rule adopting the expanded auto-dialer concept. The
D.C. Circuit invalidated that rule in March 2018. ACA Int’l,
855 F.3d 687. Then in June 2018, the Third Circuit issued
Dominguez v. Yahoo, Inc., which reverted to prior Third Circuit precedent narrowly construing the auto-dialer provision. 894 F.3d 116, 119 (3d Cir. 2018). In the wake of those
decisions, a number of district courts dismissed cases that
were based on the expanded auto-dialer concept. Pet. 32–33
& n.3 (citing cases). These developments likely caused the
decrease in new TCPA filings. There is no reason to think
that usage of random or sequential dialing decreased substantially during the relevant period.

17
wave of multi-million-dollar lawsuits for ordinary
customer communications.8
The irony is that random and sequential dialers became obsolete long ago. See ACA Int’l, 885
F.3d at 699 (rejecting FCC’s argument that autodialer provision must be interpreted broadly or
else “little or no modern dialing equipment would
fit the statutory definition”). Current telemarketing technology involves more targeted advertising, in which a company uses the information
available from data brokers to identify consumers
for specific messages. Telemarketers call actual
phone numbers for actual people, focusing their
advertising on the individuals they want to reach.
No longer does a telemarketer need to generate a
random or sequential list of possible phone numbers to spread an indiscriminate phone ad.
Given that technology has moved away from
the practices Congress originally targeted, the
natural consequence should be fewer TCPA cases
under these provisions—and perhaps renewed
legislative attention to the technologies of concern
to citizens receiving unwanted mobile calls or text
messages today. Instead, a law originally intended “to eradicate machines that dialed randomly or sequentially generated numbers” is being used “to fill a legislative gap in coverage created by new communication technology.” Glasser,
948 F.3d at 1309, 1311. This new generation of

8

As noted above, each call made using an auto-dialer without the recipient’s consent incurs an automatic $500 penalty
at a minimum. For willful violations, the penalty triples. 47
U.S.C. § 227(b)(3).

18
TCPA cases attacks the use of any automated
equipment, not of random or sequentially generated numbers. The flawed decision below should
represent the high-water mark of this trend. The
Ninth Circuit interpreted the auto-dialer definition to cover every device that can store a list of
numbers and call the numbers automatically—
without reference to whether the list is random or
sequential, or on the other hand represents an individual’s personal contacts.
On that interpretation, every smart phone is
an auto-dialer, not to mention the sorts of customer relations management (“CRM”) software
that are necessities at consumer-facing businesses. These systems store customer-provided
contact information, along with other information
(for example, order details) depending on a business’s particular usage. If a company wants to call
a customer for any reason, it will surely pull the
number from a CRM system of some sort. And
given modern communications technology, the
CRM system will likely play some role in initiating the call. Though decidedly not the practices
the TCPA sought to address when passed in 1991,
these are the sorts of standard business operations that much current-day TCPA litigation attacks.
II. THE NINTH CIRCUIT’S EXPANSIVE INTERPRETATION MAKES TCPA COMPLIANCE UNPREDICTABLE AND INORDINATELY EXPENSIVE.
To provide the level of service demanded by
consumers today, companies like Home Depot obviously must be able to communicate efficiently

19
and directly with their own customers. To avoid
unnecessary expense and delay, companies often
use CRM software to ensure a reliable means of
reaching—whether by call, text, or voice message—the phone number provided by the customer.
Unsurprisingly, this basic customer service
practice is common across consumer-facing businesses today. In shipping or delivering orders,
software enables companies to notify customers
via voice or text message (as customers prefer in
today’s just-in-time consumer environment).
When a business wants to inform a customer
about security issues, such as unusual activity in
a customer account, use of CRM-based automated
calling is important to get the message across as
fast as possible. And when companies want to tell
customers about payment problems, they will often use CRM to ensure the information being conveyed is accurate, secure, and sensitive to customer financial concerns.
Because CRM software uses customer-provided, stored contact information to generate and
send such messages, the basic tools that modern,
consumer-facing businesses use to ensure a high
level of customer service also likely fall within the
Ninth Circuit’s expansive concept of auto-dialers.
The same would be true of store announcements
or service alerts that the company might send to
its own customers. As the decision below demonstrates, the Ninth Circuit’s interpretation apparently even reaches targeted security alerts—messages that are obviously intended to provide an

20
important benefit to the recipient, and bear no resemblance to the type of pervasive, indiscriminate
telemarketing that gave rise to the TCPA. See
Pet. Br. 50. Under the Ninth Circuit’s expansive
interpretation of the auto-dialer prohibitions, a
company could not send such messages without
risking liability under the TCPA.
That the statute exempts calls made with the
recipient’s prior express consent, 47 U.S.C.
§ 227(b)(1)(A), does not do much to ameliorate
that risk. Prior express consent is a compliance
nightmare. Under the original understanding of
the TCPA, a business could avoid TCPA liability
by simply not acquiring or using the specialized
equipment to dial random or sequential numbers.
By contrast, under the Ninth Circuit’s reading, a
company must obtain consent from customers
that provide their phone numbers; store records of
those consents alongside the numbers; rigorously
maintain those records; and consider the possibility that a given individual might withdraw consent.9 A statute originally meant to prohibit a particular form of abusive telemarketing becomes a

9

As just one example, Home Depot recently faced sevenfigure liability in a class action where the lead plaintiff admitted she gave her phone number to a Home Depot-affiliated service provider for purposes of marketing calls. She
wrote her number on a contact card that she filled out at an
advertising kiosk. The trial court determined that Home
Depot could be liable nonetheless, because the plaintiff had
not expressed her consent to receive auto-dialer calls. Tr. of
Ct.’s Op. on Defs.’ Mot. for Summ. J. pp. 9–10, Manopla v.
Home Depot USA, Inc., No. 15-1120 (D.N.J. Sept. 29, 2017)
(“Manopla Op.”).

21
broad-spectrum privacy rule governing wide
swaths of ordinary customer communication.
Several other features of the TCPA illustrate
why compliance with the Ninth Circuit’s interpretation would be virtually impossible for consumerfacing businesses:
x Strict liability/lack of good-faith defense: The TCPA imposes strict liability for violating the auto-dialer prohibitions. No proof of
negligence is required, and a business’s good-faith
efforts to comply give it no defense. 47 U.S.C.
§ 227(b). “[A]ny person within the United States”
who makes “any call (other than a call made for
emergency purposes or made with the prior express consent of the called party)” using an ATDS
to “any telephone number assigned to a . . . cellular telephone service” is liable for damages—regardless of whether the caller took reasonable
measures to ensure the recipient had previously
provided consent.
If the auto-dialer provision applies to any call
made using CRM software or a smart phone, this
strict liability standard is untenable for consumer-facing businesses. To adhere to the Ninth
Circuit’s version of the TCPA, businesses must at
a minimum implement complex compliance systems to ensure that no call to a cell phone exceeds
the scope of a previously granted consent, but
even that is not enough. Mistakes will happen: in
data entry, in maintaining the records of consent
or of withdrawal of consent, in interpreting a customer’s consent or withdrawal of consent, or in
categorizing (as against the scope of a consent) a
particular communication.

22
Such errors have incredibly expensive consequences—$500 per call (and $500 per text message10). The imposition of a steep, strict liability
shows that Congress cannot have meant to cover
every type of automated calling equipment a business might use. Congress’s goal was to stamp out
swiftly a practice in a particular industry that it
identified plainly and that defendants could readily avoid. The auto-dialer strict-liability regime
makes much less sense for a restriction that, under the Ninth Circuit’s interpretation, covers a
wide range of ordinary business practices and requires companies to limit their communications
on the basis of a customer-by-customer assessment of consent.
The structure of other features in the TCPA
confirms that Congress would not have imposed
the auto-dialer strict liability if it had meant a
broad-spectrum restriction—because Congress
actually didn’t use strict liability for the other
broader provisions in the TCPA. Notably, the
TCPA instructed the FCC to develop a do-not-call
list, in which an individual could register his or
her phone number with a request that companies
not call it for advertising purposes. 47 U.S.C.
§ 227(c). If a company calls a number on the list,
the person called can sue for $500 statutory damages; but “implement[ing], with due care, reason-

10

See Satterfield v. Simon & Schuster, Inc., 569 F.3d 946,
954 (9th Cir. 2009)) (holding a text message counts as a
“call” for TCPA purposes).

23
able practices and procedures to effectively prevent” such missteps is a defense to liability. Id.
§ 227(c)(5).
The Ninth Circuit’s interpretation of the autodialer provision is more sweeping than the do-notcall rule; it covers all calls from any sort of automated system to any cell phone, whether for marketing or for any other purpose. The efforts
needed to attempt compliance with the Ninth Circuit’s rule are more complex; a company must record consent from each person it contemplates calling, and record the scope of that consent with respect to the wide variety of reasons it might communicate with customers. Had Congress contemplated that the auto-dialer rule would operate so
broadly, it would surely have provided a “goodfaith efforts” defense as it did for the do-not-callregistry in the same statute. That it did not, and
mandated strict liability instead, signals that the
auto-dialer provision is a simpler, narrower prohibition with which Congress expected companies to
comply readily—and quickly.
x Wrong numbers: Companies like Home
Depot rely upon contact information provided by
their own customers. A company cannot ensure
that such information will always be perfectly upto-date or correct. “[T]here is no dispute that millions of wireless numbers are reassigned each
year,” as subscribers switch providers or change
their numbers. ACA Int’l, 885 F.3d at 705. Thus,
“even the most careful caller, after employing all
reasonably available tools to learn about reassignments, ‘may nevertheless not learn of reassignment before placing a call to a new subscriber.’”

24
Id. (quoting Rules and Regulations Implementing
the TCPA, 30 FCC Rcd. 7961, 8009 (2015)). And
in doing so, the caller would have just violated the
TCPA—at least under the Ninth Circuit’s expansive interpretation.
The FCC itself recognized the difficulty, particularly in light of the strict-liability regime. It
reasoned that the reassignment of a phone number automatically extinguished the consent provided by the prior subscriber. 30 FCC Rcd. at
7999–8001. But, acknowledging that strict liability would be harsh for a business’s call to a number that the company did not even known was reassigned, the FCC cobbled together a fix: “[C]allers who make calls without knowledge of reassignment and with a reasonable basis to believe
that they have valid consent to make the call
should be able to initiate one call after reassignment as an additional opportunity to gain actual
or constructive knowledge of the reassignment.”
Id. at 8000. The FCC stated that regardless of
what information that call produced—calling a
phone and reaching an automated voicemail does
not necessarily reveal who the current subscriber
is—the business would be “deem[ed] . . . to have
constructive knowledge” of the reassignment after
one call. Id. Further elaborating this creative solution, the FCC clarified that “a single caller includes any company affiliates, including subsidiaries,” all of which collectively are allowed to
make one call to a reassigned number. Id. at 8000
n.261.
As the D.C. Circuit recognized, the FCC’s onecall concept was not a rational solution; and the

25
real problem was the deeper infirmities in the
agency’s interpretation of the TCPA. ACA Int’l,
885 F.3d at 706–07. “The Commission allowed for
that one liability-free call, rather than impose ‘a
traditional strict liability standard,’ because it interpreted a caller’s ability under the statute to
rely on a recipient’s ‘prior express consent’ to
‘mean reasonable reliance.’ And when a caller has
no knowledge of a reassignment, the Commission
understandably viewed the caller’s continued reliance on the prior subscriber’s consent to be ‘reasonable.’ ” Id.
But the FCC failed to explain why reasonable
reliance would cease after a single phone call,
since “[t]he first call or text message . . . might give
the caller no indication whatsoever of a possible
reassignment (if, for instance, there is no response
to a text message, as would be the case with or
without a reassignment).” Id. at 707. If a customer provides a cell phone number to a company,
the company would often not know if—or when—
that number no longer belongs to the customer.
Subsequent calls would thus (unwittingly) reach a
new subscriber who has not consented to the call.
The end result is that wrong-number cases
continue to proliferate, because a company that is
in good faith calling a number that its customer
provided might instead be calling a stranger—and
incurring strict $500-a-call liability.
The wrong-number problem demonstrates
again that strict liability makes sense only if the
auto-dialer restriction is limited to equipment
that dials random or sequential numbers. A com-

26
pany can obviously control whether it uses an automatic dialer to place random or sequential calls
to unsuspecting consumers, and assumes the risk
of liability if it does so. Strict liability makes little
sense if the auto-dialer provision extends to any
device capable of storing and then dialing cell
phone numbers, such as CRM software. A company cannot communicate with its own customers
without using such tools. And it cannot use them
without occasionally reaching wrong or reassigned cell phone numbers.
Here again, the imposition of strict liability
shows that Congress meant auto-dialers to be
clearly identifiable special-purpose equipment. If
auto-dialers include common-use business communications systems and even ordinary cell
phones, then Congress was imposing strict liability for incidents that by their nature sometimes
happen accidentally. It is unlikely Congress
meant to do that.
x Vicarious liability for vendors and
agents: This strict liability standard is particularly onerous for consumer-facing companies because it extends not only to calls placed by the
company itself, but also to calls placed by any
“agent” of the company. See Campbell-Ewald Co.
v. Gomez, 136 S. Ct. 663, 674 (2016) (“[The FCC]
has ruled that, under federal common-law principles of agency, there is vicarious liability for TCPA
violations . . . and we have no cause to question
it.”). In addition to ensuring that its own communications systems comply with the auto-dialer restriction, companies must therefore also ensure
that vendors, third-party service providers, and

27
advertising and marketing firms working on their
behalf also comply with these restrictions.11
But as noted above, it would be virtually impossible for the company itself to comply with the
TCPA as interpreted by the Ninth Circuit, given
the problem of wrong or reassigned cell phone
numbers. Doubly so for potential “agents” of the
company, whose telecommunications systems are
not under the direct control of the company. Even
a company that imposes stringent requirements
on its vendors and service providers cannot know
whether and how those requirements are always
followed—at least not without imposing sky-high
monitoring costs out of step with market conditions and any reasonable assessment of consumers’ actual costs and benefits. Suppose, for example, a company strictly requires that a service provider’s field representatives make calls only from
dedicated systems linked to a consent database.
Any time one of those employees uses a cell phone
to text or call a customer without verifying the
prior express consent, in the Ninth Circuit’s view
the service provider and the company hiring it
face a potential $500 TCPA penalty.
These realities, in conjunction with the Ninth
Circuit’s expansive interpretation of an auto-

11

The Manopla case cited above, see supra n.9, illustrates
this problem as well. The company that actually called the
plaintiff was selling its own products, but as a Home Depotaffiliated service provider used Home Depot’s logo on the
contact card the plaintiff filled out. The district court held
that Home Depot could face vicarious liability in that situation. Manopla Op. at 11.

28
dialer, render it practically impossible for consumer-facing companies to conduct business without serious risk of facing litigation for alleged
TCPA violations. Retailers are therefore left with
the Hobson’s choice of foregoing routine communications with their own customers, or taking on the
risk of TCPA liability and nuisance suits every
time a text or voice message accidentally reaches
a wrong or reassigned cell phone number, as inevitably happens sometimes.
This dilemma does not benefit consumers either, as the specter of TCPA liability for routine
business communications imposes additional
costs on retailers and discourages socially beneficial communications. This case, for example, involves text messages sent by Facebook to alert users that an unrecognized browser was attempting
to access their account. Duguid v. Facebook, Inc.,
926 F.3d 1146, 1150 (9th Cir. 2019). Consumers
obviously benefit from security alerts notifying
them that their accounts or personal information
may have been compromised, but companies cannot send such alerts without occasionally reaching
a wrong or reassigned phone number. Interpreting the auto-dialer provision to reach such targeted communications disincentives companies
from providing such services, and thus ultimately
harms consumers.

29
III. THE DEFINITION OF “AUTOMATIC TELEPHONE DIALING SYSTEM” MUST BE READ
NARROWLY TO AVOID VIOLATING THE FIRST
AMENDMENT.
The discussion above shows the immense
practical problems that result from an expansive
conception of auto-dialers—problems that Congress did not intend when it enacted the TCPA,
and that demonstrate how far the Ninth Circuit
has strayed beyond what Congress meant when it
defined the term. If those concerns were not
enough, the Court should also bear in mind the
serious constitutional issues that arise from the
Ninth Circuit’s reading of the statute. As interpreted by the Ninth Circuit, the TCPA amounts to
an almost complete ban on the use of cell phones
for commercial speech, an interpretation that both
goes far beyond the bounds of congressional intent
and that raises First Amendment concerns.
Last Term, the Court addressed a contentbased restriction in the TCPA. The auto-dialer restrictions exempt calls to collect government debt
and the Court easily recognized that prohibiting
certain calls to cell phones but allowing those
debt-collection calls constitutes a “content-based
restriction on speech.” Barr v. Am. Ass’n of Political Consultants, Inc., 140 S. Ct. 2335, 2346
(2020).
The statute also constitutes a restriction on
the time, place, and manner of speech. To be sure,
Home Depot’s calls to customers are primarily for
commercial purposes. Commercial speech receives less stringent protection than some other
speech, but it is still protected. Matal v. Tam, 137

30
S. Ct. 1744, 1764 (2017). Even for commercial
speech, “[t]he regulatory technique may extend
only as far as the interest it serves.” Id. (alteration in original).
Moreover, the TCPA sweeps far more broadly.
Nothing in the auto-dialer prohibition limits it to
marketing or to commercial speech. To reiterate:
“It shall be unlawful for any person . . . to make
any call (other than . . . with the prior express consent of the called party) using any automatic telephone dialing system . . . to any telephone number
assigned to a . . . cellular telephone.” 47 U.S.C.
§ 227(b)(1)(A) (emphasis added).
The government can, of course, “impose reasonable restrictions on the time, place, or manner
of protected speech. McCullen v. Coakley, 573
U.S. 464, 477 (2014) (quoting Ward v. Rock
Against Racism, 491 U.S. 781, 791 (1989)). But
such restrictions must be “narrowly tailored to
serve a significant governmental interest.” Id.
The expansive Ninth Circuit version of the TCPA
fails that standard. Congress stated its concerns
when it enacted the TCPA: “Unrestricted telemarketing . . . can be an intrusive invasion of privacy
and . . . a risk to public safety.” Pub. L. 102-243,
§ 2(5), 105 Stat. at 2394. Meanwhile the Ninth
Circuit reads the auto-dialer restriction to apply
to essentially every phone and every phone call—
telemarketing or otherwise—because every phone
in common use today has the capability that for
the Ninth Circuit makes a phone an auto-dialer,
namely the capacity to store telephone numbers to

31
be called.12 See Marks v. Crunch San Diego, LLC,
904 F.3d 1041, 1052 (9th Cir. 2018); Duguid, 926
F.3d at 1151–52. That is simply the functionality
of having a contact book.
Truly, the Ninth Circuit version of the TCPA
prohibits nearly every call—by a business or by
anybody else—to a cell phone. That goes far, far
beyond addressing the focused privacy and safety
concerns that Congress expressed. Any call from
a phone that has a contact book may also be a violation, even if the caller had actually dialed the
number by hand. In short, the Ninth Circuit’s interpretation makes an enormous swath of modern
phone communication unlawful. Actual liability
comes mainly to companies that place substantial
volumes of calls. But the prohibition is universal,
and so is the exposure to $500-a-call liability.
The Ninth Circuit, perhaps recognizing the
staggering implications of its interpretation, tried
to cabin it by adding a qualification that an autodialer must be able to dial the stored numbers “automatically.” Marks, 904 F.3d at 1053. This gloss
is atextual. An auto-dialer, as the statute defines
it, is a device that has the “capacity” to “store or
produce telephone numbers . . . , using a random
or sequential number generator,” and “to dial such
numbers.” 47 U.S.C. § 227(a)(1). Nothing in the

12

By 2018, 94% of adults in the United States used a cell
phone, and 81% used a smart phone. Pew Research Center,
Smartphone Ownership Is Growing Rapidly Around the
World, But Not Always Equally 3 (Feb. 2019).

32
definition suggests that the dialing has to be automated. At best, the statute states what numbers the device is able to call: “such numbers,”
meaning the numbers that the device has “stored”
or “produced.” If, as the Ninth Circuit has held,
any storage of numbers will do, then any dialing
of those stored numbers must also qualify a phone
as an auto-dialer. The court below rejected the
specific type of automation that Congress had in
mind—namely, “using a random or sequential
number generator”—because it thought that
clause should modify only “produce” and not
“store.” See Pet. Br. 27. Then, ironically, the court
developed its own notion of automation that it
said modifies a different phrase—“dial such numbers”—for which Congress provided no qualification at all. Rewriting the statute this way is not
legitimate.
Worse, even this revision of the TCPA would
not actually mitigate the constitutional problem.
Phones with storage functions also make automatic calls. The ubiquitous contact book functions
in modern phones are not storing the numbers so
that a user can write them down and dial them by
hand. A phone user selects a contact, and then the
phone dials the number. That is automatic dialing. Perhaps, one might say, it is not “automatic”
in the way the Ninth Circuit contemplated. But
ever more elaborate judicial revision of the statute
would be even more inappropriate for the courts.
Whatever the Ninth Circuit meant by the requirement of an ability to dial a call automatically, the First Amendment risk remains. This

33
risk to free speech is yet another reason to reject
overbroad interpretations of the term “automatic
telephone dialing system.” “[C]ourts should, if
possible, interpret ambiguous statutes to avoid
rendering them unconstitutional.” United States
v. Davis, 139 S. Ct. 2319, 2332 n.6 (2019). That
notion is “[o]f long lineage,” id. (citing Parsons v.
Bedford, 28 U.S. 433, 448–49 (1830) (Story, J.)),
and it is particularly sensible in this context. Out
of the respect due to another branch, the Court
should hesitate to presume that Congress really
intended the broad, disturbing prohibition on
speech that the Ninth Circuit has found in the
TCPA. In fact, Congress contemplated the First
Amendment implications of what it undertook,
and accordingly framed its interest narrowly:
“The Constitution does not prohibit restrictions on
commercial telemarketing solicitations.” Pub. L.
102-243, § 2(8), 105 Stat. at 2394. The Court
should read the auto-dialer prohibition to be consonant with that statement. Congress’s method to
limit telemarketing solicitations was simply to restrict the use of specialized dialing technologies
that were used mainly for intrusive telemarketing, not to regulate all calls to cell phones.
If the TCPA had said straightforwardly that
no person may call a cell phone without prior express consent, such a prohibition would likely violate the First Amendment. That is not what the
TCPA says, but solely because the auto-dialer prohibition covers only the dialing of phone numbers
stored or produced by “a random or sequential
number generator.” 47 U.S.C. § 227(a)(1). That
limitation is the key feature of the entire auto-

34
dialer prohibition. To avoid these serious constitutional concerns, the Court should read the definition of “automatic telephone dialing system” to
employ the “random or sequential number generator” limitation across its scope.
CONCLUSION
The Court should therefore reverse the decision below.
Respectfully submitted.
KEITH BRADLEY
Counsel of Record
SQUIRE PATTON BOGGS
(US) LLP
1801 California Street
Denver, CO 80202
(303) 830-1776
keith.bradley@
squirepb.com
WILLIAM P. BARNETTE
BEN W. THORPE
The Home Depot, Inc.
2455 Paces Ferry Rd.
Atlanta, GA 30339
(770) 433-8211
SEPTEMBER 11, 2020

BENJAMIN BEATON
SCOTT W. COYLE
BENJAMIN C. GLASSMAN
SQUIRE PATTON BOGGS
(US) LLP
201 E. Fourth Street
Cincinnati, OH 45202
(513) 361-1200

